            Audit Report



Unused Facilities and Capacity at
 Social Security Administration
          Headquarters




      A-15-13-13103 | March 2014
MEMORANDUM


Date:      March 28, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Unused Facilities and Capacity at Social Security Administration Headquarters (A-15-13-13103)

           The attached final report presents the results of our audit. Our objectives were to (1) identify
           unused office space in buildings at the Social Security Administration Headquarters location,
           (2) determine whether the Agency had a plan to freeze its real estate footprint, and (3) determine
           whether the Agency was meeting the objectives of its plan.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Unused Facilities and Capacity at Social Security
Administration Headquarters
A-15-13-13103
March 2014                                                                      Office of Audit Report Summary

Objective                                       Our Findings

Our objectives were to (1) identify unused      During our walkthroughs, we identified empty workstations and
office space in buildings at the Social         workstations that SSA used to store such items as office supplies,
Security Administration (SSA)                   boxes, obsolete computer equipment, and furniture. We also
Headquarters location, (2) determine            identified large areas of open space the Agency was not using.
whether the Agency had a plan to freeze
its real estate footprint, and (3) determine    Additionally, we identified off-campus leased space that SSA was
whether the Agency was meeting the              not fully occupying. However, SSA was paying for all this space,
objectives of its plan.                         regardless of occupancy.
Background                                      Finally, we determined that SSA was taking steps to reduce its real
SSA’s Headquarters has been located in
                                                estate footprint and associated costs, in accordance with Federal
Woodlawn, Maryland, since 1960.                 initiatives. SSA also has a plan to consolidate multiple components
Approximately 13,000 of SSA’s                   in single locations on the Headquarters campus so it can terminate
68,000 employees work at its                    existing leases for some outlying buildings. We concluded that
Headquarters facilities. These employees        SSA was meeting the objectives of its plan and was creating
perform many of SSA’s core functions in         systems to better manage its office space.
9 buildings at the Headquarters campus
and 14 buildings in the surrounding area.       Our Recommendation
In May 2012, President Obama                    We recommend that SSA explore opportunities to use vacant space
implemented a “Freeze the Footprint”            in the Woodlawn Office Complex and Security West buildings to
(FTF) policy, which states that in each         house components and expedite the termination of outlying leases.
year, an agency shall not increase the size
of its domestic real estate inventory.          SSA agreed with our recommendation.
In response to FTF, SSA is examining its
rent costs and outlying building leases to
develop strategies to reduce its footprint.
In January 2012, SSA embarked on a plan
to “. . . create a flexible, secure, and
sustainable campus environment for SSA.”
Specifically, the plan’s goal was to
(1) reduce SSA’s real estate footprint, rent,
and operating costs; (2) respond to future
organizational and operational changes;
(3) promote the best use of Headquarters
space and land; (4) provide a safe and
secure environment; (5) meet
sustainability and energy reduction goals;
and (6) create a beautiful campus.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Federal Mandates for Agencies Not to Increase Real Estate .....................................................3
     SSA’s Initiatives ........................................................................................................................3
           Analyses Conducted.............................................................................................................4
Results of Review ............................................................................................................................4
     Vacant Workstations, Workstations Used as Storage Space, and Unused Open Space ............4
     SSA Paying Rent for Underused Office Space in Outlying Buildings ......................................6
           Underused Office Space with Leases Expiring Within the Next 5 Years ...........................8
     SSA Steps to Reduce Rent Costs and Shrink Footprint.............................................................9
Conclusions ....................................................................................................................................11
Recommendation ...........................................................................................................................11
Agency Comments .........................................................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Detail of Headquarters and Outlying Buildings.................................................. B-1
Appendix C – SSA Consolidation Plan ...................................................................................... C-1
Appendix D – DD Workstation .................................................................................................. D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)
ABBREVIATIONS
AFGE                 American Federation of Government Employees

DCHR                 Deputy Commissioner for Human Resources

DCO                  Deputy Commissioner of Operations

FTF                  Freeze the Footprint

GSA                  General Services Administration

NCC                  National Computer Center

OAG                  Office of Acquisition and Grants

OFSM                 Office of Facilities and Supply Management

OIG                  Office of the Inspector General

ORM                  Office of Realty Management

SSA                  Social Security Administration

WOC                  Woodlawn Office Complex




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)
OBJECTIVE
Our objectives were to (1) identify unused office space in buildings at the Social Security
Administration Headquarters location, (2) determine whether the Agency had a plan to freeze its
real estate footprint, and (3) determine whether the Agency was meeting the objectives of its
plan.

BACKGROUND
SSA’s Headquarters has been located in Woodlawn Maryland, since 1960. Approximately
13,000 of SSA’s 68,000 employees work at the Agency’s Headquarters facilities. These
employees perform many of SSA’s core functions in 9 buildings on the Headquarters campus 1
and 14 buildings in the surrounding vicinity. The General Services Administration (GSA) owns
the campus buildings and leases the outlying buildings for SSA. The GSA-owned buildings
comprise about 3 million square feet of office space housing approximately 7,000 employees.
The leased outlying buildings comprise about 2.3 million square feet of office space housing
approximately 6,000 2 employees. The Office of Facilities and Supply Management (OFSM)
oversees facilities Agency-wide and directs the Agency's national real property program
including short- and long-range facilities planning, design, construction, and leasing of central
office facilities. See Appendix B for a breakdown per employee of each building. Table 1
displays the Headquarters main campus and outlying buildings.




1
 There are 11 buildings on the Headquarter campus; however, 2 buildings, the Utility Building and Child Care
Center, do not support SSA’s core functions.
2
    This number of employees includes approximately 1,700 employees that will be in the Wabash building.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                             1
                               Table 1: Headquarters and Outlying Buildings
           Headquarters Buildings (GSA-owned) 3                Outlying Buildings (Leased Buildings)
           Altmeyer                                          Rutherford Business Center
           Robert M. Ball                                    Woodlawn Office Complex
           Annex                                             Security West Building
           East High Rise                                    Windsor Corporate Park 2
           East Low Rise                                     Preston Gateway, Building
           West High Rise                                    Oak Meadows
           West Low Rise                                     Executive Park West
           Supply Building                                   Boulevard Place 4
           National Computer Center                          Meadows East
                                                             Windsor Corporate Park 1
                                                             Rolling Road Commerce Center 5
                                                             Dunleavy Building
                                                             Rolling Heights 6
                                                             Wabash Building

The Altmeyer, Robert M. Ball, West High/Low Rise, East High/Low Rise, and Annex buildings
make up the core office space on the west side of the main campus. Bridges and enclosed
walkways connect these buildings. The 5-story National Computer Center (NCC) is the primary
building on the east side of the main campus. SSA built the NCC in 1979 as a data center
dedicated to housing computer equipment. The Agency is building a new data center 30 miles
from the main campus in Urbana, Maryland, to replace the computer server-related functions at
the NCC. SSA expects the new data center to be complete in January 2016 and plans to renovate
the third floor of the NCC after the data center function moves to Urbana. The Agency estimates
it will add approximately 500 seats to the campus because of renovations associated with the
NCC. 7

The largest leased building SSA occupies is the Security West building, which is located west of
the main campus. Security West has more than 800,000 rentable square feet of office space and
approximately 2,600 employees. The remainder of the outlying building leases range from about



3
 The Metro West building is in downtown Baltimore. It is GSA-owned and solely occupied by SSA. Metro West
will be out of SSA’s inventory of buildings in spring 2014 following the completion of the Wabash building.
4
    After our fieldwork, this lease terminated in January 2014 and is no longer in SSA’s inventory of real estate.
5
    After our fieldwork, this lease terminated in December 2013 and is no longer in SSA’s inventory of real estate.
6
    Id.
7
 Since the NCC’s infrastructure is over 30 years old, it no longer meets the demands of a modern data center or as
office space. Therefore, such issues as the ventilation capacity and energy efficiency are not adequate for the
building.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                    2
20,000 to 160,000 rentable square feet and are used for office space and storage. SSA’s new
Wabash Avenue Building is in northern Baltimore. It will replace the Metro West building in
January 2014. The Wabash building lease is for 20 years, set to expire in 2034.

Federal Mandates for Agencies Not to Increase Real Estate
In May 2012, President Obama implemented a “Freeze the Footprint” (FTF) policy. 8 This policy
mandates that agencies not increase the size of their civilian real estate inventory, subject to
certain exceptions. The policy also states that Agencies must move aggressively to dispose of
excess Government-held properties and make more efficient use of the Government’s real estate
assets.

SSA’s Initiatives
In response to FTF, SSA is examining its rent costs and outlying building leases to develop
footprint reduction strategies. According to the Agency, other factors that drive its initiatives are
(1) Executive Orders for agencies to reduce their real estate portfolios, (2) SSA personnel
re-alignments, (3) hiring freezes, and (4) potential rent savings. In January 2012, SSA embarked
on a plan to “. . . create a flexible, secure, and sustainable campus environment for SSA,
balanced with efficient leased occupancies in the Woodlawn area.” 9 Specifically, the goal is to
(1) reduce SSA’s real estate footprint, rent, and operating costs; (2) respond to future
organizational and operational changes; (3) promote the best use of Headquarters’ space and
land; (4) provide a safe and secure environment; (5) meet sustainability and energy reduction
goals; and (6) create a beautiful campus.

SSA officials believe a successful strategy will consolidate and place multiple components in
single locations at the Headquarters campus. Doing so will allow SSA to terminate leases for
outlying buildings. Accordingly, SSA has begun co-locating components and planning to
terminate leases for outlying buildings. For example, the Office of Acquisition and Grants
(OAG) is located in the Boulevard Place building in Woodlawn, Maryland. SSA will terminate
the Boulevard Place lease from its real estate portfolio and bring OAG’s 135 employees to the
first floor of the Robert M. Ball building on the main campus. This new location will be near a
major entrance, which will simplify access for individuals with whom OAG has contracted to
perform work. Boulevard Place has 31,812 usable square feet. OAG’s new location in the
Robert M. Ball building will provide 19,877 usable square feet. The annual rent cost at
Boulevard Place is $839,144. However, since OAG is moving to the main campus, the annual
savings will be the amount of rent that will no longer be paid for the Boulevard Place building.
SSA will realize savings on this relocation in OAG’s first year on the main campus. SSA
estimates OAG will move to its new location in the second quarter of FY 2014.



8
    OMB Memorandum M-12-12. Section 3 - Real Property (May11, 2012).
9
 Social Security Administration, Headquarters Master Plan, Woodlawn, Maryland, Master Plan Report Final,
September 6, 2013, B. Goals of the Plan, p.7.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                         3
Finally, in efforts to continue administering SSA’s nationwide space management program, SSA
has appointed Senior Real Property Officers. The Officer’s responsibilities are to (1) direct the
nation-wide SSA Space Management Program, (2) request space from GSA, (3) notify GSA in
instances where space is no longer needed, (4) request GSA to modify or waive standards set
forth for the accommodation of physically handicapped persons, and (5) approve Occupancy
Agreements.

Analyses Conducted
To meet our objectives, we performed the following steps.

1. Gained an understanding of SSA’s plans to reduce rental costs and its footprint, including its
   strategy to consolidate and co-locate multiple components in single locations on the
   Headquarters’ main campus.

2. Walked through all the Headquarters’ main campus buildings and outlying SSA buildings in
   Woodlawn, Maryland, to identify unused office space. We performed these walk-throughs
   from July through September of 2013.

3. Walked through all Headquarters’ main campus buildings and determined whether
   components were using empty workstations as storage space. We performed these walk-
   throughs from July through September of 2013.

RESULTS OF REVIEW
1. During our walkthroughs, we identified empty workstations and workstations that were being
   used to store such items as office supplies, boxes, obsolete computer equipment, and
   furniture. We also identified instances where SSA was not using large areas of open space in
   the Security West building.

2. We identified instances where SSA was not fully occupying off-campus leased buildings;
   however, it was paying rent to occupy the space.

3. We determined that SSA was taking steps to reduce costs and comply with FTF.
   Additionally, SSA developed a plan to consolidate multiple components in single locations
   on the Headquarters campus, allowing existing leases for outlying buildings to be terminated.
   Although its plan was not complete, SSA was meeting its objectives. Finally, SSA was
   creating systems to better manage office space.

Vacant Workstations, Workstations Used as Storage Space, and
Unused Open Space
During our walkthroughs of SSA’s main campus buildings, we identified workstations that were
not occupied or being used. Table 2 lists the buildings and the number of vacant workstations.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                  4
                             Table 2 – Buildings with Vacant Workstations 10
                                                                                        Total Annual
                                                          Total         Price per          Cost to
                                    Vacant
                Building                                 Square          Square          Agency for
                                  Workstations
                                                         Foot 11          Foot            Vacant
                                                                                        Workstation
            Robert M. Ball               121               7,865          $10.50          $82,583
            West High Rise                50               3,250          $11.98          $38,935
            Annex                        171              11,115           $9.04         $100,480
            East Low Rise                 29               1,885           $8.42          $15,872
            East High Rise                58               3,770           $8.26          $31,140
            Total                        429             27,885                           $269,010

Vacant workstations often represent space a component has available to fill personnel vacancies.
They also provide flexibility to move personnel within a component. We noted that some of the
empty workstations were non-contiguous to other workstations. We believe SSA could use these
vacant workstations to get optimal use of its office space.

Also, during our walkthroughs, we identified instances where components used vacant
workstations to store such items as office supplies, boxes, obsolete computer equipment, and
furniture. Table 3 lists the buildings where we identified workstations used for storage.




10
     These numbers are fluid and can change as organizational and employment statuses change.
11
 We noted various types of workstations; therefore, we performed our calculation of square footage using the
DD workstation to provide the most conservative estimate. The DD workstation is 65 square feet. See Appendix D
DD Workstation for a diagram of the DD workstation.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                           5
                    Table 3 – Buildings with Workstations Used as Storage Areas 12
                                                                                        Total Annual
                                                                                           Cost to
                                      Vacant
                                                   Total                Price per        Agency for
                                    Workstations
                 Buildings                        Square                 Square           Vacant
                                      Used as
                                                 Footage 13             Footage         Workstation
                                      Storage
                                                                                          Used for
                                                                                          Storage
            Robert M. Ball                   36            2,340          $10.50          $24,570
            West High Rise                    5              325          $11.98           $3,894
            Annex                            54            3,510           $9.04          $31,730
            East Low Rise                     9              585           $8.42           $4,926
            East High Rise                   37            2,405           $8.26          $19,865
            Total                          141             9,165                            $84,985

As stated, vacant workstations could represent space to fill personnel vacancies.

SSA Paying Rent for Underused Office Space in Outlying Buildings
During our walkthroughs of SSA’s outlying buildings, we identified space that SSA was not
fully occupying; however, SSA was paying rent to occupy the space. Most of these buildings
have leases that will end within the next 3 years. However, there are two buildings that have
extended leases that will end in approximately 5 years. Table 4 shows buildings whose leases
will expire within the next 3 years:




12
     These numbers are fluid and can change as organizational and employment statuses change.
13
 We noted various types of workstations; therefore, we performed our calculation of square footage using the
DD workstation to provide the most conservative estimate. The DD workstation is 65 square feet. See Appendix D
DD Workstation for a diagram of the DD workstation.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                           6
       Table 4: Underused Office Space in Outlying Buildings with Leases Expiring Within the
                                           Next 3 Years
                                                                        Number
                                                          Amount
                                                                           of            GSA               Total
                       Lease End         Rentable            of
       Building                                                        Occupants      Termination         Annual
                         Date           Square Feet       Building
                                                                           in           Rights 14          Rent
                                                          Occupied
                                                                        Building
Meadows East 4th
                        1/31/2015           70,004           1/2            45             None          $1,981,113
Floor 15
Dunleavy               11/15/2014           75,075           1/4            107          90 days         $1,395,582
Windsor Park 1          11/9/2014           36,119           1/2            152          90 days           $901,924
Windsor Park 2          2/28/2017           33,600           1/3            52          6 months           $918,245
Oak Meadows, 2nd                                                                      270 days 2nd
                        11/5/2015           19,570           1/2            34                             $501,602
Floor                                                                                     floor
Total                                      234,368                          390                          $5,698,466

  SSA is not fully using the above-listed leased space. We observed that several buildings were
  only one-half or one-quarter occupied. SSA plans to begin moving most of the components in
  these buildings to the main campus in 2014. However, the opportunity exists for some of this
  space to be vacated and the lease terminated earlier than the lease end date. For instance, the
  Dunleavy building has three components that only fill one-quarter of the space. The lease for
  this building expires at the end of 2014, and GSA has a 90-day termination right. These
  components are Offices of the (1) Deputy Commissioner of Operations – Immediate Claims
  Taking Unit (DCO), (2) Inspector General - Office of Investigations (OIG) , and (3) Deputy
  Commissioner for Human Resources - Office of Personnel (DCHR). The Agency plans to move
  DCO to the Wabash building on March 31, 2014. OIG plans to move from the Dunleavy
  building to the Meadows East building in April 2014. Finally, the Agency plans to move DCHR
  to the second floor of the Annex building; however, the Agency has not established a move date.
  These components could be moved to temporary space on campus to terminate the Dunleavy
  lease.

  The fourth floor of the Meadows East building has two components that fill only half of the
  floor. SSA has no plans to move these components to its main campus. The Meadows East
  building fourth floor lease ends in 2015. However, we believe the remainder of this space could
  be used temporarily to facilitate the termination of other leases.




  14
    This column represents the termination rights between GSA and the lessor. However, SSA may relinquish space
  with 120 days’ notice to GSA.
  15
    The Meadows East building has four floors. All the floors are fully occupied by SSA components except the
  fourth floor, which is only half occupied. The remainder of the fourth floor is vacant.



  Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                              7
 Underused Office Space with Leases Expiring Within the Next 5 Years
 The Woodlawn Office Complex (WOC) and the Security West building have extended leases
 that will end in approximately 5 years. We identified underused office space in these buildings.
 Table 5 shows buildings whose leases will expire within the next 5 years.

                   Table 5: Underused Office Space in WOC and Security West
                          with Leases Expiring Within the Next 5 Years

                                                  Amount of        Number of          GSA              Total
                 Lease End        Rentable
  Building                                         Building        Occupants       Termination        Annual
                   Date          Square Feet
                                                  Occupied         in Building       Rights 16         Rent
WOC              12/31/2018        160,810            1/2              380             None           $2,838,396
Security West    10/31/2018        820,676            All            2,642             None         $15,402,836
Total                              981,486                           3,022                          $18,241,232

 As shown above, SSA only occupies half of the WOC but pays rent for the whole building.
 Further, the employees at the WOC will move to the Wabash building in March 2014; however,
 SSA stated it would continue leasing the whole building to use the building’s 25 training rooms.

 During our walkthrough of the Security West building, we identified 280 empty workstations
 and 29 empty workstations used as storage areas. These workstations represent approximately
 20,000 square feet of unused space. We also identified several large areas of open space that
 SSA was not using to seat employees or as work areas for the respective components. These
 open spaces represented space that components once used to receive mail and prepare documents
 to mail. Table 6 shows the amount of open space for each floor of the Security West building.
 Currently, most of this space is unused.




 16
   This column represents the termination rights between GSA and the lessor. However, SSA may relinquish space
 with 120 days’ notice to GSA.



 Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                              8
                               Table 6 – Security West Open Space by Floor

                                                     Total Square            Underused
                                  Floor               Footage of             Open Space
                                                        Floor
                        First floor                      240,713                   8,832
                        Second floor                     248,722                  19,189
                        Second Floor Tower                52,498                   3,027
                        Third Floor Tower                 52,498                   5,926
                        Fourth Floor Tower                52,498                   4,733
                        Fifth Floor Tower                 52,498                   6,131
                        Sixth Floor Tower                 52,498                   4,707
                        Seventh Floor Tower               52,498                     835
                        TOTALS                           804,423                53,380 17

Open space that is not used to seat employees or as work areas for the components at the
Security West building represents 53,380 square feet of unused space.

In light of the vacant space in the WOC and Security West buildings and their extended lease
end dates, SSA should explore opportunities to use the vacant space to house components and
terminate other outlying leases. For instance, the components in the Oak Meadows building,
whose lease ends in 2015, could be moved to either the WOC or Security West building. SSA
should continue exploring similar opportunities to expedite the termination of outlying leases.

SSA Steps to Reduce Rent Costs and Shrink Footprint
SSA developed strategies to reduce its real estate costs and footprint. In February 2012, SSA
began a 15-year plan for the 275.65-acre Headquarters campus, including 3 million rentable
square feet of space in the 9 Government-owned campus buildings and 2.3 million rentable
square feet of leased space in 14 properties in the Woodlawn vicinity. The plan includes the
development and analysis of data collected from (1) interviews, (2) existing documentation,
(3) executive orders, and (4) policies. SSA took these steps to evaluate existing conditions,
opportunities, and constraints of the campus facilities. Among the critical planning factors
considered were the following.

      Security and Public Access
      Infrastructure/Utilities
      Environmental Conditions
      Sustainability


17
     The square footage of open space was provided by the Office of Facilities and Supply Management.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                      9
   Transportation (including proposed Maryland Transit Authority Red Line)
   Space Use
   Land Use
   Workplace Delivery
   Local Zoning and Development Plans
   Economic Factors

As a result, SSA was exploring new ways to minimize its footprint or renovating space in the
(1) West High Rise, (2) Robert M. Ball, (3) Annex, and (4) NCC buildings. These actions are
facilitating SSA’s plans to terminate many of its leases among the 14 off-campus buildings.
SSA’s plan is to move components from off-campus buildings to the main campus beginning in
2014. This will reduce the Agency’s rent and operating costs. Currently, there are about
23 components with approximately 4,300 employees in the off-campus buildings. To date, SSA
has successfully moved four components out of off-campus buildings. See Appendix C for
SSA’s plans concerning outlying leases.

Furthermore, the Office of Realty Management (ORM), a component of OFSM, stated that it is
establishing systems to better identify, manage, and monitor component office space to
consolidate surrounding leases. ORM plans to establish SharePoint sites and other automated
processes to streamline the way it collects, maintains, and reports rent budget data. ORM
estimates that these processes will be completed in 2014.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                            10
CONCLUSIONS
During our walkthroughs of SSA’s Headquarters main campus buildings, we identified
429 workstations that were not occupied or being used. We also identified 141 vacant
workstations SSA was using to store office supplies, boxes, obsolete computer equipment, and
furniture. We noted that some of the empty workstations and workstations being used as storage
areas were non-contiguous to other workstations.

In the Security West building, we identified 280 empty workstations and 29 vacant workstations
being use as storage areas. Additionally, we identified 53,380 square feet of open space in the
Security West building that was not being used to seat employees or as work areas.

During our walkthroughs of SSA’s outlying buildings, we identified instances where some
leased space was not fully occupied, but SSA was paying rent for the entire space. There were
approximately 600 SSA employees in these buildings. Considering the number of vacant
workstations on the main campus and the available space in the WOC and Security West
building, SSA should explore opportunities to use this vacant space to house components and
terminate other leases.

Finally, we determined that SSA was complying with Federal initiatives to freeze its real estate
footprint and had plans to consolidate multiple components on the Headquarters campus,
allowing termination of existing leases of outlying buildings. Although its plan is not complete,
SSA is meeting the objectives of its plan. Additionally, SSA is creating systems to better
manage its office space.

RECOMMENDATION
We recommend that SSA explore opportunities to use vacant space in the WOC and Security
West buildings to house components and expedite the termination of outlying leases.

AGENCY COMMENTS
SSA agreed with our recommendation. SSA also provided technical comments, which we
incorporated, as appropriate. The Agency’s comments can be found in Appendix E.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                              11
                                       APPENDICES




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)
Appendix A – SCOPE AND METHODOLOGY
For this review, we performed five steps to meet our objectives. Specifically, we:

1. Gained an understanding of Social Security Administration (SSA) plans to reduce rental
   costs and its footprint, including its strategy to consolidate and co-locate multiple
   components in single locations on the Headquarters campus.

       Met with individuals from the Office of Facilities and Supply Management to discuss
        SSA’s plans and strategies to reduce rental costs and its footprint in accordance with
        “Freeze the Footprint” initiative.
       Reviewed SSA’s Master Plan to understand SSA’s detailed plans that will be
        implemented on the Headquarters campus.
       Reviewed applicable public laws and regulations.

2. Walked through all Headquarters buildings and outlying SSA buildings in Woodlawn,
   Maryland, to identify unused office space.

       We identified workstations, offices, open spaces that were not being used by the
        respective components.
       We inquired about SSA plans (if any) to use the unused space.

3. Walked through all Headquarters buildings and determined whether components were using
   empty workstations for storage.

       We identified workstations that the respective components were not using to house a staff
        member but instead were being used to store supplies, computer equipment, old furniture,
        etc.
       We inquired about any SSA plans to use the unused space.

4. Analyzed occupancy agreements.

       Reviewed the occupancy agreements for on-campus and outlying buildings to determine
        the (1) lease start and end dates, (2) rentable and useable square footage, (3) cost per
        square foot, and (4) annual rent cost per building.
       Determined what buildings have termination rights.

We conducted our audit between March and October 2013 at SSA Headquarters in Woodlawn,
Maryland. We tested the data obtained for our review and determined them to be sufficiently
reliable to meet our objectives. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.


Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                               A-1
  Appendix B – DETAIL OF HEADQUARTERS AND OUTLYING BUILDINGS
  Headquarters                                                   Square                                                                                      Square
                             Square         Number of                                 Outlying Buildings               Square           Number of
    Buildings                                                  Footage Per                                                                                 Footage Per
                             Footage        Employees 1                               (Leased Buildings)               Footage          Employees
  (GSA-owned)                                                   Employee                                                                                    Employee
                                                                                   Rutherford Business
Altmeyer                     213,176               409                521                                                16,231                 27              601
                                                                                   Center
                                                                                   Woodlawn Office
Robert M. Ball             1,059,705            2,945                 360                                              160,810                 380              423
                                                                                   Complex
Annex                        439,412               997                441          Security West Building              824,563               2,642              312
                                                                                   Windsor Corporate
East High Rise               138,239               401                345                                                33,600                 52              646
                                                                                   Park 2
                                                                                   Preston Gateway
East Low Rise                118,089               228                518                                              144,386 2                  7
                                                                                   Building
West High Rise               193,698               318                609          Oak Meadows                           48,190                204              236
West Low Rise                 55,965                81                691          Executive Park West                   48,374                223              217
Supply Building             126,794 3               61                             Boulevard Place 4                     33,721                137              246
National
                             546,749            1,364                 401          Meadows East                        123,027                 275              447
Computer Center



  1
    These are the number of employees as of April 2012. SSA stated that as of the date of this report, it does not have updated staffing counts. Further, SSA stated
  that the campus population has shrunk by approximately 300 employees since April 2012 (approximately 5 percent). However, SSA did not know specifically in
  which buildings the workforce reductions took place.
  2
      The majority of the square footage of this building is dedicated to storage/warehousing; therefore, we did not calculate the square footage per person.
  3
      Id.
  4
      After our fieldwork, this lease terminated in January 2014 and is no longer in SSA’s inventory of real estate.



  Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                                                             B-1
  Headquarters                                                    Square                                                                                      Square
                              Square         Number of                                 Outlying Buildings               Square           Number of
    Buildings                                                   Footage Per                                                                                 Footage Per
                              Footage        Employees 1                               (Leased Buildings)               Footage          Employees
  (GSA-owned)                                                    Employee                                                                                    Employee
                                                                                   Windsor Corporate
Utility Building               42,052 5              37                                                                   36,119                152              238
                                                                                   Park 1
Child Care                                                                         Rolling Road Commerce
                                33,058               46                719                                                55,927                 78              717
Center                                                                             Center 6
                                                                                   Dunleavy Building                     75,075                 107              702
                                                                                   Rolling Heights 7                    149,500                   0
                                                                                   Wabash Building                      515,005               1,665              309




   5
       The majority of the square footage of this building is dedicated to storage/warehousing; therefore, we did not calculate the square footage per person.
   6
       Subsequent to our fieldwork, this lease terminated in December 2013 and is no longer in SSA’s inventory of real estate.
   7
       Id.



   Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                                                             B-2
Appendix C – SSA CONSOLIDATION PLAN
    Outlying                                                                                                     Has the
                                                                     Lease         Target        GSA
    Buildings      Square                          Number of                                                    Component
                                Components                         Expiration      Move       Termination                      Planned Re-Location
     (Leased       Footage                         Employees                                                      Moved
                                                                     Date           Date        Rights
    Buildings)                                                                                                     Yet?
Rutherford
                                                                                                                            SSA has no plans to relocate
Business            16,231       Mail Facility          27          8/31/2019         NA        270 days           NA
                                                                                                                            this mail function.
Center
                                                                                                                            DCO/OIO will move to the
Woodlawn
                                                                                              No termination                Wabash Building. However,
Office              160,810        DCO/OIO              380        12/31/2018     3/31/2014                        No
                                                                                                  rights                    the training center will remain
Complex
                                                                                                                            at the WOC.
Security
                                                                                              No termination                SSA has no plans to relocate the
West                824,563      ODO/OMOS              2,642       10/31/2018         NA                           NA
                                                                                                  rights                    components in this building.
Building
                                                                                                                            This component will move to
Windsor                          DCOMM/OPI              35          2/28/2017      12/31/13                        No
                                                                                                                            the West High Rise Building
Corporate           33,600                                                                      6 months
Park 2                                                                                                                      This component will move to
                               DCOMM/OCPT               17          2/28/2017     3/15/2014                        No
                                                                                                                            the West High Rise Building
Preston
                                                                                                                            There are no plans to relocate
Gateway             144,386       Warehouse              7         11/28/2015         NA        270 days           NA
                                                                                                                            this warehouse function.
Building
                                                                                                                            Currently, a location on main
                                DCRDP/OMVE              170          4/3/2015         NA      90 days for the      No       campus has not been
Oak                                                                                            1st floor and                determined.
                    48,190
Meadows                                                                                        270 days for                 Currently, a location on main
                                 DCQP-Balto.                                                  the 2nd floor 1
                                                        34          11/5/2015         NA                           No       campus has not been
                                 Field Office
                                                                                                                            determined.




1
    SSA has two leases for the Oak Meadows Building, the first floor and the second floor.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                                                       C-1
    Outlying                                                                                                          Has the
                                                                       Lease          Target         GSA
    Buildings       Square                           Number of                                                       Component
                                 Components                          Expiration       Move        Termination                        Planned Re-Location
     (Leased        Footage                          Employees                                                         Moved
                                                                       Date            Date         Rights
    Buildings)                                                                                                          Yet?
                                                                                                                                  DCDAR/OAO will move to the
                                 DCDAR/OAO               209          9/23/2015      3/31/2014                            No
Executive                                                                                                                         Wabash Building.
                     48,374                                                                           60 days
Park West                                                                                                                         DCDAR/CCPB5 will move to
                                DCDAR/CCPB5               14          9/23/2015      3/31/2014                            No
                                                                                                                                  the Wabash Building
Boulevard                                                                                                                         This component will move to
                     33,721      DCBFM/OAG               137          7/31/2015      1/10/2014        90 days             No
Place                                                                                                                             the Robert M. Ball Building
                                                                                                                                  This component has moved to
                                   DCQP/DIB               0           1/31/2015      6/30/2013                            Yes
                                                                                                                                  the East High Rise Building
                                                                                                                                  Currently, a location on main
                                                                                                                                  campus has not been
                                                                                                  90 days for the                 determined. Approximately
                                   DCS/OTSO               75          1/31/2015         NA           1st and 2nd          No
                                                                                                                                  26 employees will be relocated
                                                                                                   floors and no                  to 2nd floor NCC in March
Meadows
                    123,027                                                                         termination                   2014.
East
                                                                                                   rights for the
                                                                                                     3rd and 4th                  Currently, a location on main
                                 DCRDP/ORES               45          1/31/2015         NA             floors 2           No      campus has not been
                                                                                                                                  determined.
                                                                                                                                  Currently, a location on main
                                   OIG/OA/OI             156          1/31/2015         NA                                No      campus has not been
                                                                                                                                  determined.
                                                                                                                                  This component will move to
Windsor                          DCDAR/OAO               130          11/9/2014      3/31/2014                            No
                                                                                                                                  the Wabash Building.
Corporate            36,119                                                                           90 days
Park 1                                                                                                                            This component will move to
                                 DCDAR/SAU                22          11/9/2014      3/31/2014                            No
                                                                                                                                  the Ball Building




2
    SSA has two leases for the Meadows East Building, the (1) first floor and second floor, and the (2) third and fourth floor.



Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                                                           C-2
 Outlying                                                                                          Has the
                                                             Lease      Target         GSA
 Buildings     Square                        Number of                                            Component
                           Components                      Expiration   Move        Termination                  Planned Re-Location
  (Leased      Footage                       Employees                                              Moved
                                                             Date        Date         Rights
 Buildings)                                                                                          Yet?
                                                                                                              This component moved to the
                           DCDAR/NHC              0        12/22/2013   9/1/2013                     Yes      Dulaney Center in Towson,
Rolling Road                                                                                                  MD.
Commerce        55,927                                                                120 days                This component moved to the
Center                                                                                                        Annex Building on 11/25/2013.
                          DCRDP/ODEPP            78        12/22/2013   12/1/2013                    Yes
                                                                                                              The lease terminated on
                                                                                                              12/22/2013.
                                                                                                              DCO/ICTU/IIT will move to
                           DCO/ICTU/IIT          81        11/15/2014   3/31/2014                    No
                                                                                                              Wabash.
                                                                                                              OIG/OI plans to move to
Dunleavy
                75,075         OIG/OI             6        11/15/2014    4/2014       90 days        No       Meadows East Building in
Building
                                                                                                              April 2014.
                                                                                                              OPE will move to 2nd floor
                            DCHR/OPE             20        11/15/2014   Late 2014                    No
                                                                                                              Annex in 11/2014.
                                                                                                              This component relocated to the
                                                                                                              Security West Building on
Rolling
                149,500      DCO/OCO              0        12/20/2014   8/1/2013      120 days       Yes      8/1/2013. The lease at the
Heights
                                                                                                              Rolling Heights Building
                                                                                                              terminated on 12/20/2013.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                                                                       C-3
Appendix D – DD WORKSTATION
The following shows the current DD workstation layout. This workstation is found throughout
SSA campus buildings. The standard DD is 65 square feet.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                        D-1
Appendix E – AGENCY COMMENTS




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“UNUSED FACILITIES AND CAPACITY AT SOCIAL SECURITY
ADMINISTRATION HEADQUARTERS” (A-15-13-13103)

Recommendation 1

We recommend that SSA explore opportunities to use vacant space in the Woodlawn Office
Complex and Security West buildings to house components and expedite the termination of
outlying leases.

Response

We agree. We recently briefed agency executives on the Master Housing Plan, which addresses
our long-term space utilization for all headquarters facilities.




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)                        E-2
Appendix F – MAJOR CONTRIBUTORS
Victoria Vetter, Director, Financial Audit Division

Judith Kammer, Audit Manager, Financial Audit Division

Ronald Anderson, Senior Auditor




Unused Facilities and Capacity at SSA Headquarters (A-15-13-13103)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
